_____________________________Luretha Stribling, ESQ.
133 Westfield Avenue, Clark, New Jersey 07066

(732) 476-5103(P)

(908) 388-0596 (F)

May 16, 2019
Attn.: Court Clerk
Supreme Court Clerk’s Office
United States Supreme Court
1 First Street, Northeast
Washington, DC 20543
RE: Kerton v. Society Hill at Droyers Point, et al
Docket Number: 018973
Dear Court Clerk:
I represent Cora Kerton and will be filing a Petition for Certiorari on her behalf. I
am requesting a sixty day extension to file my Petition for Certiorari. I received a final
decision from the New Jersey Supreme Court on March 8, 2019. It is my belief that the
issues in this case are of national importance to the law enforcement community as well as
other first responders who are called upon in times of emergency and are oftentimes
injured. I understand that the required filing time is within 90 days of entry of the
decision from the New Jersey Supreme Court. My present filing deadline is the date of
June 6, 2019. If the sixty days extension is granted, the new filing deadline will be
August 6, 2019. I am requesting a sixty day extension to file the Petition for Certiorari as
my mother is seriously ill and as a result I have had to devote time and attention to her
health care needs. This has resulted in less time in my office. In the event that a sixty day
extension is not allowed, I then request any additional time that the Court can allow.
Please advise whether the extension requested can be granted. My office telephone
number is (732) 956-0010. I thank the Court for all courtesies extended.
Respectfully submitted,

Luretha M. Stribling
cc:

Liana Nobile, Esq.
John Dineen, Esq.

